U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


       NATIONAL INSTITUTE OF
  STANDARDS AND TECHNOLOGY

     NIST Properly Tracked FY 1998 Superfund
Charges to the Environmental Protection Agency


       Audit Report No. BTD-11485-9-0001 / January 1999




       Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                 Final Report BTD-11485
Office of Inspector General                                                           January 1999

Introduction

Among its many efforts to contribute to public health and safety, NIST provides technical
research to counteract the effects of toxic waste spills. This work is performed on a reimbursable
basis through interagency agreements with the EPA. Funds for the agreements are appropriated
through the Hazardous Substance Response Trust Fund, more commonly referred to as the
“Superfund.” The Superfund is used to identify the nation’s uncontrolled hazardous waste sites,
assign priorities to the risks they create, and eliminate those risks.

The Superfund program, created under the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980, established the Superfund to provide funds for
identifying, prioritizing, and remedying the nation’s uncontrolled hazardous waste sites. The
1980 Act, as amended by the Superfund Amendments and Reauthorization Act of 1986, provides
for full recovery from responsible parties of all response costs incurred by the Federal
Government. Response costs generally include expenses for investigations, cleanup,
enforcement, and administrative activities.

The 1986 Act also provides that the Inspector General will conduct an annual audit of all
payments, obligations, reimbursements, or other uses of the Superfund to ensure that the fund is
being properly administered.

Purpose and Scope of Audit

The purpose of our audit was to determine whether NIST had properly managed the financial
aspects of its Superfund interagency agreements. We evaluated whether NIST had (1) accurately
accumulated, documented and charged EPA for the Superfund reimbursable costs;
(2) established adequate internal controls over reimbursable work related to the interagency
agreement; and (3) complied with the terms and conditions of its Superfund interagency
agreement with EPA. Our review covered interagency agreements entered into or continuing
between EPA and NIST during the period October 1, 1997 through September 30, 1998.

We reviewed NIST’s policies and procedures for accepting reimbursable work, identifying and
assigning actual costs to the project, and recovering all eligible costs. We also interviewed
NIST’s scientific and administrative personnel. Our review was conducted at NIST offices in
Gaithersburg, Maryland during November 1998.

To confirm direct costs, we reviewed the agency’s financial and program records as well as EPA
documents and records. In reviewing indirect costs, we limited the scope of our review to
performing an analytical review of indirect costs and rates charged and then investigating any
differences from the previous fiscal year. We found no significant unexplained differences in the
indirect cost rates we compared.



                                                2
U.S. Department of Commerce                                                   Final Report BTD-11485
Office of Inspector General                                                             January 1999

Our audit included an evaluation of internal controls to the extent that they related to the
administration of the Superfund interagency agreements with EPA. We relied upon our own
review, as well as the internal control reviews performed by the independent accountants for
NIST for fiscal year 1998. We concluded that the internal controls provided reasonable
assurance that there was no material weakness in the recording of the Superfund appropriations.

In our review, we relied on computer-based data obtained from NIST’s Office of the Controller.
We assessed the reliability of the data by tracing it to source documents and comparing it to other
summary data prepared by the laboratories. We found the data sufficiently reliable to be used in
meeting the audit objectives. In addition, we evaluated the agency’s compliance with laws and
regulations applicable to the Superfund monies. We identified the Comprehensive
Environmental Response, Compensation, and Liability Act of 1980, as amended, as the
authorizing and governing legislation. The terms and conditions of the interagency agreement
were identified. The review was conducted in accordance with generally accepted government
auditing standards, and was performed under the authority of the Inspector General Act of 1978,
as amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.

Superfund Charges Accurately Accumulated, Documented and Billed

One NIST operating unit received Superfund monies under an interagency agreement
(DW13936516-01-0) with EPA during fiscal year 1998. The Technology Laboratory received
funding through three modifications to the existing interagency agreement. Modification #9
provided the Technology Laboratory $450,000, Modification #10 provided the Technology
Laboratory $12,000, and Modification #11 provided the Technology Laboratory with $400,000
from EPA’s Superfund. In total, the Technology Laboratory received $862,000 from EPA’s
Superfund. The entire $862,000 was obligated in Fiscal Year 1998.

We tested the accuracy of the accounting data by tracing it to original source documents and to
the NIST/EPA entry recorded in the Working Capital Accounts. We compared the data to
summary information contained in the cost center statements and other documents. All costs
were reconciled with the limitation ledgers and related to the NIST Working Capital Account.

In the Technology Laboratory the data was accurately recorded from time sheets to the labor cost
summaries. The NIST administration overhead charges were properly documented in the cost
center. We traced the indirect costs assigned to the laboratory to the cost center report. The data
recorded in the accounting records was accurate and reliable in all material respects, and reflected
reasonable costs incurred for the services provided by NIST.

We determined that the costs for the interagency agreement projects were appropriately charged.
Costs incurred did not exceed the specified interagency agreement obligation limits. We found
that NIST properly reported the use of their Superfund funds, that all billings appeared
reasonable for the work performed or the objectives anticipated, and that NIST performed in


                                                 3
U.S. Department of Commerce                                                Final Report BTD-11485
Office of Inspector General                                                          January 1999

compliance with the applicable legislation. All costs were accumulated in a segregated cost
center for the work performed under the Superfund interagency agreement.

The following is the interagency agreement under which Superfund monies were received and
obligated, and expenses were incurred, during fiscal year 1998:

                     Summary of FY 1998 Obligations and Disbursements
                      Under Interagency Agreement DW13936516-01-0

                                                Advance              Expended
                    Object Class              From EPA           Appropriations
                    Cost Center 8973412:

                      Personnel
                       Sponsoring Division                  $              2,165
                      Fringe Benefits
                        Matching Costs                                       455
                      Overhead
                        Applied OU                                           396
                        Applied NIST                                       1,256
                      Equipment
                                                                         228,805
                        ADP
                    Cost Center 8973408:

                      Equipment

                          ADP                                            628,923
                    Totals                   $    862,000   $            862,000

               OU=Applied for the Operating Unit NIST=Applied for NIST Administration

In summary, we found that NIST properly accumulated, documented, and billed all of the Superfund
work performed during fiscal year 1998 under the NIST/EPA interagency agreement. Our findings,
therefore, result in no recommendations for action by NIST.


                                                  4
